                              Office of the Inspector General

March 25, 1999

James M. Fornataro
Associate Commissioner
 For Acquisition and Grants

Acting Assistant Inspector General
 for Audit

Costs Claimed by the Commonwealth of Virginia on the Social Security Administration’s
Contract Number 600-92-0114


The attached final report presents the results of our audit of the costs claimed by the
Commonwealth of Virginia on the Social Security Administration’s Contract Number
(CN) 600-92-0114 (A-13-98-81004). The objective of our audit was to determine
whether costs claimed by the Commonwealth of Virginia for CN 600-92-0114 were
allowable, allocable, and reasonable in accordance with applicable Federal regulations
and the terms of the contract. This report also provides the contracting officer with cost
information to determine the final contract value to use in closing out the contract.

You may wish to comment on any further action taken or contemplated. If you choose
to offer comments, please provide your comments within the next 60 days. If you wish
to discuss the final report, please call me at (410) 965-9700.




                                                Daniel R. Devlin

Attachment
                                        Office of the Inspector General

March 25, 1999

James M. Fornataro
Associate Commissioner
 for Acquisition and Grants

Acting Assistant Inspector General
 for Audit

Costs Claimed by the Commonwealth of Virginia on the Social Security Administration’s
Contract Number 600-92-0114


This final report presents the results of our audit of the costs claimed by the
Commonwealth of Virginia on the Social Security Administration’s (SSA) Contract
Number (CN) 600-92-0114 (A-13-98-81004). The objective of our audit was to
determine whether costs claimed by the Commonwealth of Virginia for CN 600-92-0114
were allowable, allocable, and reasonable in accordance with applicable Federal
regulations and the terms of the contract. This report also provides the contracting
officer with cost information to determine the final contract value to use in closing out
the contract.

INTRODUCTION

SSA’s Office of Acquisition and Grants (OAG) requested an audit of costs incurred by
the Commonwealth of Virginia (CN 600-92-0114) for vocational and rehabilitative
services under a field experiment known as “Project Network.” Under the contract, the
Commonwealth of Virginia agreed to provide a full range of case management services
to Social Security Disability Insurance beneficiaries (SSDI)1 and Supplemental Security
Income (SSI)1 recipients to assist them in returning to work. The contracted service
period was from July 1992, through March 1995. The costs claimed under
CN 600-92-0114 are defined in terms of the contract. Additionally, Federal Acquisition
Regulations (FAR) and the Office of Management and Budget (OMB) Circular A-87
“Cost Principles for State, Local and Indian Tribal Governments” provide criteria to
establish allowability, allocability, and reasonableness of costs claimed by the
Commonwealth of Virginia for Federal cost reimbursement contracts.



������������������������������������

1
 SSDI provides worker’s disability benefits for qualified workers and their families. SSI provides income

maintenance payments to low-income individuals who are aged, blind, or disabled.

Page 2 – James M. Fornataro

SCOPE AND METHODOLOGY

We limited our audit to the review of costs incurred by the Commonwealth of Virginia,
Department of Rehabilitative Services for CN 600-92-0114. We did not assess, and do
not express an opinion of the overall acceptability of the Commonwealth of Virginia’s
internal controls or accounting systems.

We did review, on a limited basis, the Commonwealth of Virginia’s internal controls. In
doing so, we assessed control risk as “high” and expanded our substantive test, which
our audit reflects and which provides a reasonable basis for our conclusions. We also
examined, on a test basis, evidence supporting the amounts claimed; inspected
disclosures in the data; reviewed records; assessed the accounting principles used and
significant estimates made by the Commonwealth of Virginia; and evaluated the overall
data and records presentation.

To evaluate claimed costs, we used OMB Circular A-87, the FAR, plus the terms and
conditions of the contract. We also interviewed Vocational Rehabilitation staff at SSA
headquarters to determine “ordinary and reasonable” charges of the program. Costs
that did not meet the requirements of SSA’s policy, OMB circulars and contract
language were questioned for SSA’s use in determining the final value of the contract
and closing it out.

We performed fieldwork at the Commonwealth of Virginia, Department of Rehabilitative
Services located in Richmond, Virginia. We also performed work at OAG at SSA
Headquarters in Baltimore, Maryland. The fieldwork was conducted from April 1998
through July 1998. Our audit was conducted in accordance with generally accepted
government auditing standards.

CONCLUSION

We determined the costs claimed by the Commonwealth of Virginia for
CN 600-92-0114 were allowable, allocable, and reasonable in accordance with
applicable Federal regulations and the terms of the contract.
Page 3 – James M. Fornataro

Costs Claimed by the Commonwealth of Virginia

The Commonwealth of Virginia claimed costs in accordance with the terms of the
contract and/or applicable Federal regulations. Details of the costs are shown below:


                  COST ELEMENT
                     CLAIMED
      RECOMMENDED
 QUESTIONE
                                                                                   D

    Direct Labor
                                     $847,971            $847,971              $0
    Fringe Benefits
                                   214,878             214,878               0
    Permanent Research
                                  75,814              75,814              0
    General Purpose
                                      7,849               7,849              0
    Material & Supplies
                                  7,351               7,351              0
    Premium Pay
                                            752                 752              0
    Travel
                                              32,458              32,458              0
    Subcontract Cost
                                    59,172              59,172              0
    VCU
                                                 63,966              63,966              0
    Other Direct Costs
                                  49,732              49,732              0
    Client Services
                                        822                 822              0
    SSI
                                               471,582             471,582               0
    SSDI
                                              638,221             638,221               0
    Indirect Costs-O/H
                                197,874             197,874               0
    Adjustments
                                       (16,104)            (16,104)              0

    Totals Costs Claimed before SSA Adjustments     $2,652,338          $2,652,338              $0
    SSA Adjusments1                                      (363)               (363)               0

    Total Costs Paid                                $2,651,975          $2,651,975              $0


RECOMMENDATION

We recommend that SSA close out the Commonwealth of Virginia
CN 600-92-0114 in the amount of $2,651,975.




                                                       ����������������




������������������������������������
1
 SSA adjusted Public Vouchers 10, 19, 27, and 29 for minor arithmetic errors and Public Voucher 18 for
accrued interest.
APPENDICES

                                                                            ����������




 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Gale S. Stone, Director, Financial Management Audits


Shirley E. Todd, Audit Manager


Stephen G. Ondrish, Senior Auditor


Richard F. Berlinrut, Senior Auditor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-9158. Refer to Common Identification Number
A-13-98-81004.
                        ����������




SSA ORGANIZATIONAL CHART

